No. 21-5592
IN THE

Supreme Court of the United States
JOHN H. RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Pablo Castro’s Children Maria Chavon Aguilar, Fernando Castro,
Pablo Castro Jr., and Roberto Salcedo Jr. as Amici Curiae in Support of Respondents
contains 5,225 words and complies with the word limitation established by Rule
33.1(g)(xiv) of the Rules of this Court.
Dated: October 15, 2021

Bradley G. Hubbard

